           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       SURVIVOR BENEFITS PAID
        IN INSTANCES WHEN THE
   SOCIAL SECURITY ADMINISTRATION
  REMOVED THE DEATH ENTRY FROM A
   PRIMARY WAGE EARNER’S RECORD

    September 2006   A-06-06-26020




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                        SOCIAL SECURITY
MEMORANDUM

Date:   September 26, 2006                                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Survivor Benefits Paid in Instances When the Social Security Administration Removed
        the Death Entry from a Primary Wage Earner’s Record (A-06-06-26020)


        OBJECTIVE
        Our objective was to evaluate the appropriateness of survivor benefits paid in instances
        when the Social Security Administration (SSA) removed the death entry from the
        primary wage earner’s record.

        BACKGROUND

        SSA maintains death information for all individuals with Social Security numbers (SSN)
        in a repository known as the Death Master File (DMF). SSA created the DMF pursuant
        to a settlement agreement in a Freedom of Information Act lawsuit. 1 The DMF is
        updated daily and made available to the public monthly. SSA accepts death reports
        from various sources, including an individual’s relatives, friends, and neighbors. The
        source must provide SSA with the name, date of birth, and SSN of the deceased
        individual before SSA will input the death information into its records. Death information
        from the DMF appears on a deceased individual’s Numerical Identification (Numident)
        record. 2 Death information should be consistent between the DMF; the Numident; and,
        in the case of a wage earner who received Old-Age, Survivors and Disability Insurance
        benefits, the Master Beneficiary Record (MBR).

        The accuracy of death information is critical to SSA and its beneficiaries, as well as
        other Federal, State and local government agencies. Input of an erroneous death entry
        can lead to benefit termination and result in financial hardship for a beneficiary.
        Erroneous death entries can also provide an opportunity for the initiation of improper
        survivor benefit payments. Conversely, the removal of legitimate death entries could
        create an opportunity to initiate improper payment of retirement and disability benefits.

        1
         See http://www.ssa.gov/legislation/testimony_110801.html; see also Civil Action Nos. 78-2385 and 78-
        2386, United States District Court, District of Columbia.
        2
            SSA, Program Operations Manual Systems (POMS), SM 00623.001A.
Page 2 - The Commissioner


In recognition of these risks, SSA policy requires that employees remove/delete a death
entry from a wage earner’s SSA record—“resurrect” the record—only when presented
with proof the original entry was posted in error. To validate the integrity of these
transactions, SSA further requires that both an initiator and an approver authorize
removal of the death entry. SSA requires that employees document the circumstances
surrounding the resurrection and provide pertinent facts supporting reinstatement in its
evidence screen. 3

Since January 2004, SSA has provided us electronic files containing all updates made
to the DMF, including instances when SSA deleted death entries from the DMF. These
files indicate that, from January 2004 through September 2005, SSA deleted
23,366 records from the DMF. We analyzed these 23,366 records and identified
1,277 that involved survivor or lump-sum death benefit claims. 4 As of November 2005,
Numident records for 599 of these 1,277 primary wage earners contained no date of
death—a further indication the wage earners were alive. See Appendix B for the Scope
and Methodology of our review.

RESULTS OF REVIEW
We identified 307 wage earners whose family members received survivor benefits even
though SSA removed the wage earners’ death entries from the DMF, and SSA’s
Numident file indicated the wage earners were alive. Contrary to SSA policy, SSA
employees who deleted these death entries did not document pertinent facts to support
or explain these transactions. The resurrection transactions indicated these wage
earners were alive and therefore survivor benefits paid on these records were improper.
As a result, SSA could pay over $13 million in questionable survivor benefits on these
records. A summary of the questionable survivor payments is provided in Appendix C.

SURVIVOR BENEFITS PAID ON RECORDS WITH DELETED DEATH ENTRIES

                               SSA paid survivor benefits even after SSA employees
Records with No Date of        removed the wage earners’ death entries from its records.
Death on the Numident          We identified 599 resurrected records that contained
                               survivor or lump-sum death benefit claims, although, at the
time of our audit, SSA’s Numident records indicated the wage earners were alive.
Claims status associated with 292 of these records did not indicate the need for further
review (for example, the claims were denied, the claims involved only lump-sum death
benefits, or the claims did not indicate a problem for some other reason). However, the
claims status associated with 307 records indicated SSA paid survivor benefits to family
members of living wage earners. At the time of our review, SSA was paying over
$180,000 in monthly survivor benefits on 234 of these 307 records. On the other
73 records, SSA initiated survivor benefits, but the payments were either terminated or

3
    SSA, POMS, GN 02602.055.
4
  The Type of Account Code in the account segment of the MBR was either an “L” (Lump Sum), “S”
(Survivor), or “LS” (Lump Sum and Survivor).
Page 3 - The Commissioner


suspended. Total questionable survivor payments on these 307 records could exceed
$13 million (see summary provided in Appendix C). Claims status for all 599 records is
summarized below.


                               Claims Status for 599 Resurrected Records
                         Where the Numident Indicated the Wage Earner Was Alive




              Lump
             Sum Only
               (92)
                                                                      Survivors in
                                                                   Current Pay Status
                                                                         (234)
        Denied                     Questionable
         (115)                        (307)
                                                                                  Benefits Initiated
                                                                                  but not in Current
                                                                                      Pay Status
                 Other
                                                                                         (73)
                  (85)




                            We also identified 678 resurrected records that contained
Records with Date of        either a survivor or lump-sum death benefit claim, but, at the
Death on the Numident       time of the audit, SSA’s Numident record indicated the
                            individuals were deceased. In these cases, it appeared SSA
processed a second death entry sometime after the resurrection transaction. Because
both individual and payment records indicated these wage earners were deceased, we
considered these resurrection transactions lower risk than the 599 records previously
discussed. In March 2006, we asked SSA to review 41 of these records to provide
reasons why the records were resurrected. SSA Operations and Systems staff
reviewed the records, but they were unable to determine why the records were
resurrected because there was insufficient historical information available to explain the
activity on the DMF. We discuss SSA’s resurrection documentation policy in further
detail below.
Page 4 - The Commissioner


NONCOMPLIANCE WITH POLICIES AND PROCEDURES

SSA policies and procedures provide detailed instructions for the removal of death
entries from a wage earner’s record. SSA does not require retention of hard copy
documents to support resurrection transactions. Instead, SSA requires that personnel
who process these transactions input narrative into SSA systems explaining why the
transactions were necessary; document performance of required face-to-face
interviews; and document the names of the SSA employees who initiated and approved
the transaction.

However, SSA did not comply with these documentation requirements. We reviewed
available documentation that supported 275 resurrection transactions 5 and found the
following.

•   SSA employees provided an explanation or justification for only 2 of the
    275 transactions. Employees should have documented this justification on systems
    evidence screens.

•   SSA employees documented performance of required face-to-face interviews for
    only 1 of the 275 transactions. SSA employees must document these interviews for
    all resurrections unless the death entry resulted from an administrative error. We
    found no evidence to indicate any of these cases were administrative errors.

•   SSA employees who removed the death entries documented the names of the
    transaction initiator and approver for only 1 of the 275 transactions. SSA requires
    that two employees participate in the resurrection process and that the names of the
    transaction initiator and approver be recorded on systems evidence screens.

Because SSA employees did not explain or justify these resurrection transactions, it is
unclear if these wage earners were alive or dead. As a result, survivor benefits paid on
these records were questionable.




5
  The 275 included the 234 resurrected records with survivors who receive benefit payments (discussed
on Page 2) and the 41 resurrected records forwarded to SSA for review.
Page 5 - The Commissioner


CONCLUSION AND RECOMMENDATIONS

SSA could pay over $13 million in survivor benefits on the records of 307 wage earners
who appear to be alive. Because SSA employees deleted these wage earners’ death
entries without explanation or justification, it appeared each of these wage earners was
alive, and survivor benefit payments to these wage earners’ family members were
improper. SSA could reduce the likelihood of improper payments by ensuring SSA
employees adequately document resurrection transactions and promptly terminate
improperly initiated survivor benefit payments.

We recommend that SSA:

1. Perform death verifications for each of the 307 records with survivor benefit
   payments identified in the report and take appropriate action (for example, terminate
   benefits and establish overpayments, reinstate death entries, refer potentially
   fraudulent cases to the Office of the Inspector General).

2. Re-emphasize to field office employees the importance of complying with
   established policies concerning the documentation of death entry removal
   transactions.

AGENCY COMMENTS AND OIG RESPONSE

SSA agreed with both of our recommendations. For Recommendation 1, SSA will
perform death verifications for each of the 307 records with survivor benefit payments
identified in the report and take appropriate action, including annotating the Evidence
Screen in Shared Processes. For Recommendation 2, SSA is taking steps to
re-emphasize to field office employees the importance of complying with established
policies concerning the documentation of death entry removal transactions. In addition,
an Agency workgroup is developing a check sheet for employees to ensure all the
proper steps and documentation are completed for death reinstatement actions.

Additionally, SSA noted that some of the 307 cases in this review period pre-date the
policy instituted in March 2004 that instructed the field offices to explain the reason for
the reinstatement on the Evidence Screen in Shared Processes. We agree with the
general comment that, between January and March 2004, the documentation
requirement was different (required paper documentation in the claims folder instead of
electronic documentation); however, the survivor benefits paid on these records remain
questionable because these survivor benefits continued when the removal of death
occurred. See Appendix D for the full text of SSA’s comments.



                                                 S
                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Summary of Questioned Costs
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                              Appendix A

Acronyms
DMF        Death Master File
MBR        Master Beneficiary Record
Numident   Numerical Identification
OIG        Office of the Inspector General
POMS       Program Operations Manual System
SSA        Social Security Administration
SSN        Social Security Number
                                                                         Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed the Social Security Administration’s (SSA) policies and procedures related
    to erroneous death terminations.

•   Visited an SSA field office to discuss procedures used to remove an erroneous
    death entry from a wage earner’s record.

•   Analyzed 23,366 instances where SSA removed death entries from the Death
    Master File during the period January 2004 through September 2005. We identified
    1,277 records that contained either a survivor or a lump sum death benefit claim.

•   Analyzed Numerical Identification (Numident) records for each of the 1,277 wage
    earners and determined that, as of November 2005, 678 records contained a date of
    death and 599 did not contain a date of death.

•   Retrieved and reviewed the Master Beneficiary Record, identified the status of any
    related survivor claims, and quantified the survivor payments for each of the
    599 records.

•   Analyzed SSA records for the 678 wage earners whose Numident record contained
    a date of death and identified the timing of the resurrection transaction relative to the
    date SSA posted the death entry on the Numident.
    9 On 423 records, SSA processed the current death entry 1 or more months after
      the resurrection transaction.
    9 In 244 instances, SSA resurrected the record in the same month a death entry
      was posted to the Numident. We randomly selected 30 of these records and
      forwarded them to SSA Operations staff for review.
    9 In 11 instances, SSA resurrected records that contained death entries originally
      processed in 1977 or earlier. We forwarded these 11 cases to SSA Operations
      staff for review.

•   Reviewed Shared Processes evidence screens for compliance with documentation
    requirements for 275 of the 1,277 resurrected records (234 of the 599 cases
    currently receiving survivor benefits, as well as the 41 cases we forwarded to SSA
    for review).

We performed our audit between October 2005 and June 2006 at SSA’s Regional
Office in Dallas, Texas. We did not test the general or application controls of SSA


                                             B-1
systems that generated electronic data used for this audit. Instead, we traced selected
transactions to source documents and performed other validation tests. As a result, we
found the data to be sufficiently reliable to meet our audit objectives. The entity audited
was the Office of the Deputy Commissioner for Operations. We conducted this audit in
accordance with generally accepted government auditing standards.




                                            B-2
                                                                                        Appendix C

Summary of Questioned Costs

             Questionable Survivor Benefits Paid on 307 Resurrected Records
             Where no Date of Death Appeared on the Wage Earner’s Numident

                                                           Number of       Number of
         Benefits Paid Through December 2005                Records       Beneficiaries        Amount
                                Claims in Pay Status           234                279          $5,095,155
                  Claims Suspended or Terminated                 73               164               3,686,695
                                                  Total        307                443          $8,781,850


      Future Payments on Claims in Pay Status               Number of Beneficiaries            Amount
         Widow and Disabled Adult Child Benefits 6                        192                       1,653,899
                                                       7
               Surviving Child and Parent Benefits                         87                       2,946,256
                                                  Total                   279                  $4,600,155


                                            Total Questionable Survivor Benefits              $13,382,005




6
    Future estimated benefits for 1 year at the current monthly benefit amount.
7
    Based on current benefits paid until child turns 18 and parent payments until child turns 16.
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY



MEMORANDUM


Date:      September 22, 2006                                                   Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Survivor Benefits Paid in Instances When
           the Social Security Administration has Removed the Death Entry from a Primary Wage Earner's
           Record" (A-06-06-26020) – INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, on extension 54636.

           Attachment:
           SSA Response




                                                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “SURVIVOR BENEFITS PAID IN INSTANCES WHEN THE SOCIAL
SECURITY ADMINISTRATION (SSA) HAS REMOVED THE DEATH ENTRY FROM
A PRIMARY WAGE EARNER’S RECORD (A-06-06-26020)


Thank you for the opportunity to review and comment on the draft report. Generally we agree
with the report findings and recommendations. Please find below a general comment as well as
our responses to the specific recommendations.

General Comment

The report states that contrary to SSA policy, employees did not document pertinent facts to
support or explain the transactions for the 307 wage earners identified by OIG whose family
members received survivor benefits even though the wage earners’ death entry was removed
during the review period, January 2004 through September 2005. It should be noted that some of
the 307 cases in this review period pre-date the policy instituted in March 2004 that instructed
the field offices to explain the reason for the reinstatement on the Evidence Screen in Shared
Processes. Prior to that date, policy and processing instructions were different and the field
offices did not have to explain the reason.

Recommendation 1

SSA should perform death verifications for each of the 307 records with survivor benefit
payments identified in the report and take appropriate action (for example, terminate benefits and
establish overpayments, reinstate death entries, refer potentially fraudulent cases to OIG).

Response

We agree. We will perform death verifications for each of the 307 records with survivor benefit
payments identified in the report and take appropriate action, including annotating the Evidence
Screen in Shared Processes.

Recommendation 2

SSA should re-emphasize to field office employees the importance of complying with
established policies concerning the documentation of death entry removal transactions.

Response

We agree. Prior to and during the OIG review period, we were already in the process of
rewriting death termination procedures. On October 12, 2005, we published Program Operations
Manual System (POMS) Transmittal 34, GN 02602.055, which clarified documentation
procedures and strengthened instructions that all administrative errors must be documented on



                                               D-2
the Evidence Screen with a second approval employee. These particular POMS sections have
been updated several times since they were published. Each time the sections are updated, the
new transmittal is brought to the attention of all field employees’ via the semi-monthly
interactive video training. In addition, an Agency workgroup is developing a check sheet for
employees to ensure that all the proper steps and documentation are completed for death
reinstatement actions. We will continue to emphasize to field office employees the importance
of complying with established policies through Administrative Messages and resource guides.




                                             D-3
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Paul Davila, Director, (214) 767-6317

   Ron Gunia, Audit Manager, (214) 767-6620

Acknowledgments

In addition to those named above:

   Clara Soto, Auditor-in-Charge

   Joshua Campos, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-06-26020.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
